CERTIFICATE OF COMPLIANCE WITH WORD COUNT
CERTIFICATE OF COMPLIANCE
No.

Michael R. Bums
t

v.
UNITED STATES

As regmred^byJSupreme Court Rule 33.1(h), I certify that the petition
for a!
__ Writ contains
words, excluding the parts of the
petition thatfare exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

25

j

Certificate of Faith
Pursuant To Rule 44,2
a^E)o hereby Certify Under The Penalty Of Perjury
I. Michael Russell Bums,*^.2i
Title 28 U.S.C. §• 1746, That I Have Served A True And Correct Copy Of The Foregoing
Document in good faith and not for delay

Certificate of Service
Do hereby Certify Under The Penalty Of Perjury Title 28 tJ.S.C. § 1746, That 1
I, Michael Russell Bums, .
Have Served A True And Correct Copy Of The Foregoing Document To The Clerk Of Court For The Supreme Court Of The United
States. Pursuant To Houston V. Lack: 487 U.S. L.Ed.2d. 108 ,Ct 2379 (1988) Is Deemed To Filed At The Time Document Was
Delivered To Prison Administration Postal Office Located In Institution For Forwarding To The Court And Service Upon Parties In
Litigation And Or Attorney’s Of Record.
I, Michafel Russeii Bums, Has Placed The Forgoing Document In A Sealed Envelope With First-Class Postage Stamps Affixed And
Addressed To:'

Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001

Document Was Delivered To The Prison Mail Room Staff At The United States PenitentiaryLsS CoUIityon This'
Of

r

2021

^Day

Oooo *500 Hg£5

7CUQ

7020
7020
7020
7020
7020
701^

&

0b40
Db40
0b40
Db40
0b40
0700

700=1 ooao
7Q1R 22BQ
701T 2260
701=1 2260
701=1 2260
TOiC 0 640

ODDI 0530 5524
DODD 1572 035b ;FOR LOCATION: BOP.
gov
0000 1572 0332
0000 1572 0341' Michael R. Burns
0000 1572 0325 #93576-038
□□□0-6732b?34
oooo 2b?n6^62 USP Lee
POBox 305
0000 b05^ 5015
Jonesville, VA 24263-0305
0000 b05^ 43T5
0000 b05^ 50bQ
0000 b05T 5022
26_qS00

